     Department of Homeland Security

     ��������������������������


      U.S. Citizenship and Immigration Services’ 

         Management Letter for FY 2013 DHS 

               Financial Statements Audit





OIG-14-71                                     April 2014

                          OFFICE OF INSPECTOR GENERAL
                             Department of Homeland Security
                              Washington, DC 20528 / www.oig.dhs.gov


                                      APR 21 2014

MEMORANDUM FOR:               Joseph Moore
                              Chief Financial Officer
                              U.S. Citizenship and Immigration Services

FROM:                         Anne L. Richards
                              Assistant Inspector General for Audits

SUBJECT:                      U.S. Citizenship and Immigration Services’ Management
                              Letter for FY 2013 DHS Financial Statements Audit

Attached for your information is our final report, U.S. Citizenship and Immigration
Services’ Management Letter for FY 2013 DHS Financial Statements Audit. This report
contains four comments and six recommendations related to internal control
deficiencies that were not required to be reported in the Independent Auditors’ Report
on DHS’ FY 2013 Financial Statements and Internal Control over Financial Reporting.
Internal control deficiencies which are considered significant deficiencies were reported,
as required, in the Independent Auditors’ Report, dated December 11, 2013, which was
included in the Department of Homeland Security’s (DHS) fiscal year (FY) 2013 Agency
Financial Report. We do not require management’s response to the recommendations.

We contracted with the independent public accounting firm KPMG LLP (KPMG) to
conduct the audit of the DHS’ FY 2013 financial statements and internal control over
financial reporting. The contract required that KPMG perform its audit according to
generally accepted government auditing standards and guidance from the Office of
Management and Budget and the Government Accountability Office. KPMG is
responsible for the attached management letter dated January 15, 2014, and the
conclusions expressed in it.

Please call me with any questions, or your staff may contact Mark Bell, Deputy Assistant
Inspector General for Audits, at (202) 254-4100.

Attachment
                                 KPMG LLP
                                 Suite 12000
                                 1801 K Street, NW
                                 Washington, DC 20006




January 15, 2014

Office of Inspector General
U.S. Department of Homeland Security, and
Chief Financial Officer
U.S. Department of Homeland Security, U.S. Citizenship and Immigration Services
Washington, DC

Ladies and Gentlemen:

We have audited the financial statements of the U.S. Department of Homeland Security (DHS or
Department) for the year ended September 30, 2013 (referred to herein as the “fiscal year (FY) 2013
financial statements”), and have issued our report thereon dated December 11, 2013. In planning and
performing our audit of the financial statements of DHS, in accordance with auditing standards
generally accepted in the United States of America and Government Auditing Standards, we
considered internal control over financial reporting (internal control) as a basis for designing our
auditing procedures for the purpose of expressing our opinion on the financial statements. In
conjunction with our audit of the financial statements, we also performed an audit of internal control
over financial reporting in accordance with attestation standards established by the American Institute
of Certified Public Accountants.
The U.S. Citizenship and Immigration Services (USCIS) is a component of DHS. During our audit, we
noted certain matters involving internal control and other operational matters, related to USCIS, that
are presented for your consideration. These comments and recommendations, all of which have been
discussed with the appropriate members of management, are intended to improve internal control or
result in other operating efficiencies. These matters are summarized in the Table of Financial
Management Comments on the following pages. The disposition of each internal control deficiency
identified during our FY 2013 audit – as either reported in our Independent Auditors’ Report, or herein
– is presented in Appendix A. Our findings related to information technology systems have been
presented in a separate letter to the DHS Office of Inspector General, the USCIS Chief Information
Officer, and Chief Financial Officer.
Our audit procedures are designed primarily to enable us to form an opinion on the financial statements
and on the effectiveness of internal control over financial reporting, and therefore may not bring to
light all weaknesses in policies or procedures that may exist. We aim, however, to use our knowledge
of USCIS’s organization gained during our work to make comments and suggestions that we hope will
be useful to you.
We would be pleased to discuss these comments and recommendations with you at any time.
The purpose of this letter is solely to describe comments and recommendations intended to improve
internal control or result in other operating efficiencies. Accordingly, this letter is not suitable for any
other purpose.
Very truly yours,




                                 KPMG LLP is a Delaware limited liability partnership,
                                 the U.S. member firm of KPMG International Cooperative
                                 (“KPMG International”), a Swiss entity.
                               U.S. Citizenship and Immigration Services
                               Table of Financial Management Comments

                                           September 30, 2013




TABLE OF FINANCIAL MANAGEMENT COMMENTS (FMC)



Comment
Reference   Subject                                                                                   Page


FMC 13-01   Deficiencies in the Public and Confidential Financial Disclosure Reporting Process         2
FMC 13-02   Deficiencies in the Recording, Classification, and Useful Life of Internal Use Software    2
FMC 13-03   Inadequate Preparation and Review of the Transaction by Elimination Pairs Report           3
FMC 13-04   Insufficient Review of Journal Entries                                                     3




                                              APPENDIX

Appendix    Subject                                                                                   Page

A           Crosswalk – Financial Management Comments to Active Notices of Finding and                 4
            Recommendation (NFRs)




                                                      1

                               U.S. Citizenship and Immigration Services
                                   Financial Management Comments

                                          September 30, 2013




FMC 13-01 – Deficiencies in the Public and Confidential Financial Disclosure Reporting Process
(Notice of Finding and Recommendation (NFR) No. U.S. Citizenship and Immigration Services
(USCIS) 13-01)

       During testwork over Office of Government Ethics (OGE) Form 450, we noted that USCIS did
       not obtain and review 247 of the 791 required OGE reports by the February 15, 2013 deadline.

       During testwork over OGE Form 278, we noted that one report was not reviewed and certified by
       the Ethics Officer within 60 days of filing.

       Recommendation:
       We recommend that USCIS make any necessary enhancements to systems and processes to
       ensure timely notification to and submission by employees of OGE Forms 450 and 278, and
       submitted forms are reviewed by the Ethics Office in a timely manner.

FMC 13-02 – Deficiencies in the Recording, Classification, and Useful Life of Internal Use Software
(NFR No. USCIS 13-02)

       USCIS was unable to provide a complete general ledger detail for internal use software (IUS)
       costs as of June 30, 2013, for substantive testing.

       We noted that the Financial Management Division (FMD) performed an analysis of the IUS
       balance as of July 31, 2013, and posted adjustments related to prior year activity, resulting in a
       net upward adjustment of $6.4 million and a net downward adjustment of $0.3 million.

       We performed testwork over additions to the IUS balance as of June 30, 2013 and noted the
       following errors:
       •	 USCIS did not reclassify $14.1 million from Software in Development (United States
           Standard General Ledger (USSGL) account 1832) to Internal Use Software (USSGL account
           1830) timely for one project. USCIS also did not update the useful life for that project in a
           timely manner. We noted that although management identified that the project’s useful life
           was changed, the useful life in the accounting records was not updated to reflect this change
           timely.
       •	 USCIS incorrectly reclassified capital costs of $722,000 from USSGL account 1830 to
           USSGL account 1832 for another project, resulting in a $182,000 understatement of
           amortization expense.

       We performed testwork over additions to the IUS balance as of September 30, 2013, and noted
       the following:
       •	 USCIS did not reclassify $352,000 from USSGL account 1832 to USSGL account 1830
           timely for one project.
       •	 USCIS did not reclassify $1.9 million from USSGL account 1832 to USSGL account 1830
           timely for another project, resulting in a $53,000 understatement of amortization expense.



                                                    2

                              U.S. Citizenship and Immigration Services
                                  Financial Management Comments

                                         September 30, 2013




       We performed a reconciliation to determine completeness and noted the following:

       Eight system releases were in-development that were not accounted for by FMD. The budgeted

       amounts for these projects totaled $3 million. 


       Recommendation:
       We recommend that USCIS develop and implement, within each office responsible for the
       management of software development projects operating procedures for:
       •	 Identifying and reporting of capitalizable software development projects prior to the initiation
          of software development.
       •	 Collecting costs for capitalizable software development projects and timely reporting that
          information.
       •	 Periodic reviews of the status of capitalizable software both in development and in operation,
          and the reporting of changes in status.

FMC 13-03 – Inadequate Preparation and Review of the Transaction by Elimination Pairs Report
(NFR No. USCIS 13-06)

       We noted that review of the September 2013 DHS Bureau Intra-Agency Transactions by
       Elimination Pairs Report was prepared using the August 2013 DHS Bureau Intra-Agency
       Transactions by Elimination Pairs Report.

       Recommendation:
       We recommend that USCIS ensure use of the most current information available when reviewing
       monthly and quarterly checklists.

FMC 13-04 – Insufficient Review of Journal Entries (NFR No. USCIS 13-07)

       A manual journal entry for Imputed Costs related to the Office of Personnel Management Post-
       Employment Benefits was understated by $1,893,179. The understatement was caused by a
       miscalculation due to the omission of the Federal Employees Retirement System - Revised
       Annuity Employee normal cost from the pension expense calculation.

       USCIS proposed an on-top correcting entry for the amount of the error.
       Recommendation:
       We recommend that USCIS review and update procedures for verifying that calculations for
       manual journal entries are complete and accurate.




                                                   3

                                                                                                                  Appendix A
                                  U.S. Citizenship and Immigration Services
                         Crosswalk – Financial Management Comments to Active NFRs
                                             September 30, 2013


                                                                                                    Disposition1
                                                                                                   IAR                 FMC
               NFR
Component                Description                                                      MW        SD       NC        No.
               No.
                         Deficiencies in the Public and Confidential Financial
USCIS          13-01                                                                                                   13-01
                         Disclosure Reporting Process
                         Deficiencies in the Recording, Classification, and Useful Life
USCIS          13-02                                                                                                   13-02
                         of Internal Use Software
                         Inaccurate Data in the CLAIMS 3, CLAIMS 4, and MFAS
USCIS          13-03                                                                                              J
                         Systems
                         Non-Compliance with the Federal Financial Management
USCIS          13-04                                                                                              J
                         Improvement Act of 1996
USCIS          13-05     Inadequate Monitoring of Software Licenses                                                   Note 1
                         Inadequate Preparation and Review of the Transaction by
USCIS          13-06                                                                                                   13-03
                         Elimination Pairs Report
USCIS          13-07     Insufficient Review of Journal Entries                                                        13-04


1
 Disposition Legend:
IAR	       Independent Auditors’ Report dated December 11, 2013
FMC	       Financial Management Comment
MW	        Contributed to a Material Weakness at the Department level when combined with the results of all other components
SD	        Contributed to a Significant Deficiency at the Department level when combined with the results of all other
          components
NC	        Contributed to Non-Compliance with laws, regulations, contracts, and grant agreements at the Department level when
          combined with the results of all other components
NFR	       Notice of Finding and Recommendation

Cross-reference to the applicable sections of the IAR:
A         Financial Reporting
B         Information Technology Controls and Financial Systems Functionality
C         Property, Plant, and Equipment
D         Budgetary Accounting
E         Entity-Level Controls
F         Liabilities
G         Grants Management
H         Custodial Revenue and Drawback
I         Federal Managers’ Financial Integrity Act of 1982 (FMFIA)
J         Federal Financial Management Improvement Act of 1996 (FFMIA)
K         Single Audit Act Amendments of 1996
L         Antideficiency Act, as amended (ADA)

Note 1:	   This finding was identified by USCIS management and therefore not included in the management letter.




                                                              4

                              OFFICE OF INSPECTOR GENERAL
                                  Department of Homeland Security


   Appendix A
   Report Distribution
   Department of Homeland Security

   Secretary
   Deputy Secretary
   Chief of Staff
   Deputy Chief of Staff
   General Counsel
   Executive Secretary
   Director, GAO/OIG Liaison Office
   Assistant Secretary for Office of Policy
   Assistant Secretary for Office of Public Affairs
   Assistant Secretary for Office of Legislative Affairs
   Chief Privacy Officer

   U.S. Citizenship and Immigration Services

   Director
   Chief Financial Officer
   Audit Liaison

   Office of Management and Budget

   Chief, Homeland Security Branch
   DHS OIG Budget Examiner

   Congress

   Congressional Oversight and Appropriations Committees, as appropriate


   �




www.oig.dhs.gov                                                            OIG-14-71
ADDITIONAL INFORMATION

To view this and any of our other reports, please visit our website at: www.oig.dhs.gov.

For further information or questions, please contact Office of Inspector General (OIG)
Office of Public Affairs at: DHS-OIG.OfficePublicAffairs@oig.dhs.gov, or follow us on
Twitter at: @dhsoig.

OIG HOTLINE

To expedite the reporting of alleged fraud, waste, abuse or mismanagement, or any
other kinds of criminal or noncriminal misconduct relative to Department of Homeland
Security (DHS) programs and operations, please visit our website at www.oig.dhs.gov
and click on the red tab titled "Hotline" to report. You will be directed to complete and
submit an automated DHS OIG Investigative Referral Submission Form. Submission
through our website ensures that your complaint will be promptly received and
reviewed by DHS OIG.

Should you be unable to access our website, you may submit your complaint in writing
to:

       Department of Homeland Security 

       Office of Inspector General, Mail Stop 0305 

       Attention: Office of Investigations Hotline 

       245 Murray Drive, SW 

       Washington, DC 20528-0305 


You may also call 1(800) 323-8603 or fax the complaint directly to us at
(202) 254-4297.

The OIG seeks to protect the identity of each writer and caller.
